                                                     May 24, 2004




MEMORANDUM TO: William D. Travers
               Executive Director for Operations



FROM:                     Stephen D. Dingbaum/RA/
                          Assistant Inspector General for Audits


SUBJECT:                  MEMORANDUM REPORT: NRC'S IMPLEMENTATION OF
                          REGULATIONS CONCERNING NONDISCRIMINATION BASED
                          ON HANDICAP (OIG-04-A-14)


At the request of a Commissioner, the Office of the Inspector General (OIG) reviewed
the Nuclear Regulatory Commission's (NRC) implementation of Federal regulations
concerning nondiscrimination based on handicap.1 The audit showed the following:

    (1) NRC’s headquarters facility generally complies with the regulations,

    (2) NRC must improve the administration of the agency's disability program, and

    (3) NRC must ensure accurate reporting of NRC disability-related data to the
        Department of Justice (DOJ).

BACKGROUND

In 1992, Congress revised the Rehabilitation Act of 1973 to make the Americans with
Disabilities Act employment standards applicable to the Federal government. Section
504 of the Rehabilitation Act applies to any executive branch agency of the Federal
Government, as well as nongovernmental facilities receiving Federal funding.
Specifically, Section 504 prohibits discrimination based on disability in programs or
activities conducted by any executive branch agency in the Federal government or its
affiliates. As such, Section 504 requires that NRC (1) provide reasonable
accommodations to qualified individuals with disabilities, (2) provide effective
communication tools for hearing- or vision-impaired people, and (3) maintain
accessibility to facilities, programs, and activities. To further prohibit discriminatory
practices in Federal programs and activities, Executive Order 12250 was issued
assigning DOJ the oversight role to ensure that Federal agencies report disability-related
data regarding recipients of Federal financial assistance. NRC enforces these
requirements through the Code of Federal Regulations, Title 10, Part 4 (10 CFR 4),

1
  A handicapped person is, “Any person who has a physical or mental impairment that substantially limits
one or more major life activities, has a record of such an impairment, or is regarded as having such an
impairment.” In this report, handicap is synonymous with disability.
                 NRC’s Implementation of Regulations Concerning NonDiscrimination Based on Handicap



Subparts B and E.2 Subpart E also incorporates the requirements of the Architectural
Barriers Act of 1968, as amended, to ensure that buildings and facilities designed, built
or altered with Federal funds, or leased by Federal agencies are accessible to the
physically handicapped.

While all NRC staff are encouraged to do their part in making equal opportunity and
managing diversity a reality at the agency, the Office of Administration (ADM), the Office
of Human Resources (HR), and the Office of Small Business and Civil Rights (SBCR)
have leadership roles in this area. In particular, these offices have specific roles in
ensuring that individuals are not discriminated against due to a handicap.

NRC is Generally in Compliance with Federal Regulations

NRC's headquarters facility is generally in compliance with Federal regulations
governing accessibility of the disabled to agency programs and activities. Of the
agency's 192 self-identified disabled employees, none filed a complaint alleging
discrimination under Section 504 over the past three fiscal years. Additionally, NRC
initiated an aggressive training program for all managers, supervisors, and team leaders,
which addresses applicable Federal disability regulations. SBCR has trained about 67
percent of these individuals to date.

The General Services Administration (GSA) periodically inspects NRC's facility to ensure
compliance with the Uniform Federal Accessibility Standards. During the last inspection
in February 2002, GSA cited NRC for not meeting these Standards due to the design of
the railing along the ramp located on the first floor of One White Flint North. At the time
of the inspection, GSA estimated the cost for fixing the railing to be about $44,000.
Because One White Flint North is a Federal building, owned by the U.S. Government,
GSA should pay for the cost of a replacement railing. However, GSA did not have the
funds to pay for the replacement railing in 2002. Until recently, ADM, the office assigned
responsibility for the headquarters facility, had done little or nothing to correct the
situation. The office is now pursuing options to resolve the issue and advised OIG that
they contacted a technical expert advisor at the United States Access Board with special
expertise on the conformance of handrails to accessibility standards. The technical
expert recommended that NRC leave the railing “as-is.” ADM documented this and sent
a copy of its internal memorandum to GSA.

Recommendation:

OIG recommends that the Executive Director for Operations:

        (1) Resolve the 2-year old railing issue with GSA so it does not become a repeat
            finding during the next GSA inspection. [Recommendation closed as of May
            19, 2004, when ADM provided evidence that GSA accepted the handrail as
            being “satisfactory as is.”]




2
 10 CFR 4, Subpart B, Regulations Implementing Section 504 of the Rehabilitation Act of 1973, as
Amended. 10 CFR 4, Subpart E, Enforcement of NonDiscrimination on the Basis of Handicap in Programs
or Activities Conducted by the U.S. Nuclear Regulatory Commission.


                                                 2
               NRC’s Implementation of Regulations Concerning NonDiscrimination Based on Handicap



NRC Needs to Improve Program Administration

NRC’s disability program is fragmented. While NRC is currently meeting Federal
regulations, continued inconsistent application and uncoordinated efforts in managing
the disability program could seriously impact NRC’s future success in this area. NRC
has a program in place to foster an equal opportunity organization for all persons
regardless of disability. However, the guidance for implementing this program is
scattered. As a result, staff are not implementing the program as intended.

NRC has several management directives (MD) that each address a piece of the
agency’s disability program.

       Ø MD 10.13, Special Employment Programs, specifically addresses NRC’s
         program for hiring, placing, and advancing persons with disabilities.

       Ø MD 10.161, NRC Equal Employment Opportunity Program (EEO), addresses
         the complaint process to prevent discrimination against persons with physical
         or mental disabilities.

       Ø MD 13.2, Facility Management, mentions that NRC will make reasonable
         accommodations for disabled persons.

       Ø MD 3.5, Public Attendance at Certain Meetings Involving the NRC Staff,
         addresses reasonable accommodations.

However, MD 3.11, Conference and Conference Proceedings, which provides guidelines
for setting up and conducting NRC-sponsored conferences, does not address
reasonable accommodations.

While several MDs address parts of the disability program, NRC also has in place a
policy document, Procedures for Providing Reasonable Accommodation for Individuals
with Disabilities (the Procedures), for providing reasonable accommodation to its
employees or applicants with disabilities. However, staff are not following all the
procedures set forth in the Procedures. The Procedures outline a specific process for
centralizing all reasonable accommodation requests within NRC by assigning a
representative from HR, the agency's Disability Program Manager, as the point-of-
contact for requests. However, not all activities are shared with the Disability Program
Manager. For example, according to the former Disability Program Manager, requests
for motorized carts and hearing-impaired services are not routed through the Disability
Program Manager. Lack of adherence to the Procedures exacerbates the fragmentation
of the disability program. Following are some examples that further illustrate this
condition:

   Ø HR announced the availability of the Procedures in July 2001 to all NRC staff via
     a network announcement and again in December 2003 to office directors and
     regional administrators. HR staff were very clear on the finalization and intended
     use of this policy document. Yet, the former Disability Program Manager did not
     know that the Procedures had been finalized. Moreover, the current Disability




                                              3
                  NRC’s Implementation of Regulations Concerning NonDiscrimination Based on Handicap



        Program Manager does not accept the Procedures as policy. If the Procedures
        are agency policy, NRC should institutionalize them as policy in the management
        directive system, which is the agency’s method for promulgating policy.

    Ø Per the Procedures, new employees are to receive a copy of this document as
      part of their orientation on the first day of work. Yet, HR staff responsible for new
      employee orientation are not aware of this requirement and are not providing
      new employees with this document.

    Ø NRC's Affirmative Employment Plan3 states as a goal that HR will periodically
      update NRC's Information Guide for People With Disabilities, an agency
      brochure. Additionally, MD 10.161, NRC Equal Employment Opportunity
      Program (EEO), provides reference to this document, as does an agency-wide
      yellow announcement issued in 2000. However, HR has not updated this
      brochure since 1997 - - as such, it contains incorrect information.

NRC’s disability program lacks management controls because program guidance is not
consolidated. As a result, staff are not implementing the program as intended.
Continued inconsistent administration of the disability program may adversely affect
NRC's future success in this area.

Recommendations:

OIG recommends that the Executive Director for Operations:

        (2) Institutionalize the disability program in a single management directive to
            ensure that all aspects of the program are addressed and that it is
            consistently implemented.

        (3) Provide new employees with a copy of the Procedures for Providing
            Reasonable Accommodation for Individuals with Disabilities as part of their
            orientation on the first day of work.

        (4) Update NRC's Information Guide for People With Disabilities on a regular
            basis to ensure that all information is current.

NRC is Reporting Inaccurate Information

The agency is not effectively tracking and reporting disability-related data to DOJ on
recipients of NRC grants and cooperative agreements4 through its financial assistance
program. SBCR, which has oversight of this aspect of the program, does not have a
mechanism for tracking the number of grants awarded. As a result, NRC is not
accurately reporting on amounts disbursed. Because SBCR does not know all recipients




3
  The NRC Affirmative Employment Plan, Fiscal Years 2001 through 2005 includes proactive guiding
principles, goals, and objectives for achieving and maintaining equal employment opportunity and a diverse
workforce.
4
  Grants and cooperative agreements will be referred to as grants in this report.




                                                    4
                 NRC’s Implementation of Regulations Concerning NonDiscrimination Based on Handicap



of financial assistance, the agency cannot provide assurance that its recipients are
complying with regulations that prohibit discrimination based on handicap in programs
and activities.

Executive Order 12250 assigned DOJ responsibility to ensure that all Federal agencies
implement (1) Section 504 of the Rehabilitation Act of 1973, as amended; and (2) any
other provision of Federal statutory law which provides that no handicapped individual
shall be discriminated against under any program or activity receiving Federal financial
assistance. NRC provides financial assistance to a variety of organizations. In return,
these organizations must provide assurance that their programs and activities do not
discriminate against disabled individuals. To implement this requirement, NRC
promulgated 10 CFR 4, Subpart B, assigning SBCR oversight of NRC’s recipients of
financial assistance. This oversight includes (1) conducting and recording periodic
compliance reviews to ensure that financial recipients do not discriminate against
disabled individuals; and (2) providing information and reports to DOJ to ensure that
NRC's recipients are complying with regulations regarding non-discriminatory practices
in Federal programs and activities receiving financial assistance.

NRC reported to DOJ that it disbursed about $4 million in FY 2001 and FY 2002 in
grants to organizations to:

        Ø provide training on a space available basis through the Office of State and
          Tribal Programs;

        Ø support basic and applied scientific research at educational, non-educational,
          and not-for-profit institutions, professional societies, and state/local
          governments; and

        Ø enable students and faculty at Historically Black Colleges and Universities
          (HBCU) to conduct technical research and development activities.

NRC's MD 11.6, Financial Assistance Program, outlines the agency's process for
awarding and tracking grants. Per MD 11.6, the Division of Contracts, ADM, is
responsible for maintaining the official record files for all NRC financial assistance
awards. However, SBCR's role and responsibility are not included in the agency's
process outlined in MD 11.6. As shown in the following charts, a comparison of
information reported by SBCR5 to DOJ and information contained in the Division of
Contracts’ grant records revealed differences in the number of grants awarded and
funds disbursed:




5
 Amount of disbursements shown in the chart are for grants and cooperative agreements only. OIG did not
verify the accuracy of HBCU amounts.


                                                  5
               NRC’s Implementation of Regulations Concerning NonDiscrimination Based on Handicap




                                Number of Grants

        20
                                                                15         14
        15              11
        10                          7
          5
          0
                          FY 2001                                 FY 2002

                      SBCR report to DOJ           Division of Contracts data




                             Amount of Grants Awarded

        $3,000,000                                            $2,596,864        $2,516,219
        $2,500,000
        $2,000,000                   $1,542,163
        $1,500,000      $1,307,000
        $1,000,000
          $500,000
                                  FY 2001                            FY 2002

                          SBCR report to DOJ           Division of Contracts data




These discrepancies occurred because SBCR depends on individual agency offices to
report awards data to them instead of receiving the data from the Division of Contracts,
where the agency’s official record files are maintained. Further, SBCR lacks a program
to ensure effective oversight of NRC's recipients of financial assistance. Specifically,
SBCR should be conducting and documenting compliance reviews of its recipients of
financial assistance in accordance with the requirements set forth in 10 CFR 4, Subpart
B. However, SBCR has not identified all NRC’s recipients of financial assistance and
does not conduct the compliance reviews. As a result, the agency is not accurately
reporting data to DOJ and cannot provide assurance that its recipients of financial
assistance are conducting their programs in compliance with disability laws.




                                               6
               NRC’s Implementation of Regulations Concerning NonDiscrimination Based on Handicap




Recommendations:

OIG recommends that the Executive Director for Operations:

       (5) Revise Management Directive 11.6, Financial Assistance Program, to identify
           and define SBCR’s role in accordance with 10 CFR 4, Subpart B.

       (6) Accurately report to DOJ the disability related data for recipients of NRC’s
           financial assistance.

       (7) Conduct compliance reviews as required by 10 CFR 4, Subpart B.

CONCLUSION

NRC's headquarters facility is generally in compliance with Federal regulations
prohibiting discrimination in agency programs and activities. However, the absence of
an effective policy and adherence to procedures could adversely affect the future
success of NRC's compliance with regulations. Further, NRC lacks an effective program
to ensure oversight of and accurate reporting on disability-related data regarding NRC's
recipients of financial assistance.

AGENCY COMMENTS

During an exit meeting on May 19, 2004, NRC officials indicated agreement with the
audit report. Agency editorial comments were incorporated, as appropriate.

SCOPE AND METHODOLOGY

The overall scope of this audit focused on regulations concerning nondiscrimination
based on handicap with regard to (1) accessibility to NRC's headquarters facility, (2)
agency reporting requirements, and (3) manager's awareness of applicable Federal
regulations. The audit team evaluated these regulations and related programs to
determine if NRC complies with Federal regulations. Auditors evaluated the agency's
established procedures for soliciting, accepting, processing, and accommodating
disabled persons' requests for accommodations. Also, auditors attended public
meetings held at NRC headquarters facility to observe the accessibility of public points
of ingress and egress and the availability of information to the disabled. Auditors did not
review NRC’s regional facilities or public meetings held at sites external to NRC. To
identify and determine reporting requirements and staff awareness of regulations, the
audit team interviewed staff in ADM, HR, and SBCR.

OIG conducted this work between January 2004 and April 2004 in accordance with
generally accepted Government auditing standards and included a review of
management controls related to audit objectives. Major contributors to this report were
Russ Irish, Team Leader; Sherri Miotla, Audit Manager; Yvette Russell, Senior Auditor;
and Jerrol Sullivan, Management Analyst.




                                              7
               NRC’s Implementation of Regulations Concerning NonDiscrimination Based on Handicap



Please provide information on the actions taken in response to the recommendations
directed to your office by June 25, 2004. Actions taken or planned are subject to OIG
follow-up. See Attachment for instructions for responding to OIG report
recommendations.

If you have any questions or wish to discuss this report, please call me at 415-5915 or
Russ Irish at 415-5972.

Attachment: As stated

cc: Chairman Diaz
    Commissioner McGaffigan
    Commissioner Merrifield




                                              8
      NRC’s Implementation of Regulations Concerning NonDiscrimination Based on Handicap



B.J. Garrick, ACNW
M. Bonaca, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
L. Reyes, OEDO
E. Merschoff, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
W. Outlaw, OCM/DOC
D. Rathbun, OCA
E. Brenner, OPA
A. Vietti-Cook, SECY
W. Kane, DHPP/OEDO
C. Paperiello, NRR
P. Norry, DEDM/OEDO
M. Springer, ADM
J. Dyer, NRR
G. Caputo, OI
P. Bird, HR
C. Kelley, SBCR
M. Virgilio, DRP/OEDO
S. Collins, DRP/OEDO
P. Lohaus, STP
F. Congel, OE
J. Strosnider, NMSS
R. Zimmerman, NSIR
H. Miller, RI
J. Caldwell, RIII
B. Mallett, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
W. Dean, OEDO
M. Malloy, OEDO
P. Tressler, OEDO




                                     9
